U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 19, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Carlos Concepcion v. United States, No. 20-1650
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 24, 2021.
The government’s response is now due, after one extension, on July 26, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
August 25, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1650
CONCEPCION, CARLOS
USA

LISA SCHIAVO BLATT
WILLIAMS & CONNOLLY LLP
725 12TH STREET, NW
WASHINGTON, DC 20005
202-434-5050
LBLATT@WC.COM
J. MARTIN RICHEY
FEDERAL DEFENDER OFFICE
51 SLEEPER STREET
5TH FLOOR
BOSTON, MA 02210
617-223-8061

